DOCKET NO. 20-5954

IN THE SUPREME COURT OF THE UNITED STATES

MERYL MCDONALD,
Petitioner,
vs.

STATE OF FLORIDA,

Respondent.

BRIEF IN OPPOSITION TO PETITION FOR WRIT OF
CERTIORARI TO THE FLORIDA SUPREME COURT

CERTIFICATE OF SERVICE

I HEREBY CERTIFY that, on this /ยง day of November, 2020,
a true and correct copy of the foregoing has been submitted to the
Clerk of the Court using the Electronic Filing System. I further
certify that a copy has been sent by U.S. mail to: Meryl McDonald,
DC #180399, Union Correctional Institution, Post Office Box 1000,
Raiford, Florida 32083, and Jonathan E. Hackworth, Esquire,
Hackworth Law, P.A., Post Office Box 4337, Tampa, Florida 33677,

jhack@bhtampa.com [and] crimpleadings@bhtampa.com.
Respectfully submitted,

ASHLEY MOODY
ATTORNEY GENERA
CARQLYN M. SNURKOWSKI*

Associate Deputy Attorney General

Florida Bar No. 158541
*Counsel of Record

MARILYN MUIR BECCUE
Senior Assistant Attorney General
Florida Bar No. 0119581

Office of the Attorney General
Capital Litigation

PL-01, The Capitol

Tallahassee, Florida 32399

Telephone: 850-414-3300

carolyn. snurkowski@myfloridalegal.com
marilyn.beccue@myfloridalegal.com
capapp@myfloridalegal.com

  

 

COUNSEL FOR RESPONDENT
